HHS/OIG, Audit -"Audit of the Iowa Department of Human Services' Claim for Medicaid School-Based Administrative Costs,"(A-07-02-02099)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of the Iowa Department of Human Services' Claim for Medicaid School-Based Administrative Costs," (A-07-02-02099)
February 25, 2004
Complete
Text of Report is available in PDF format (1.41 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether school-based administrative expenditures claimed by Iowa in State
fiscal years 1998 through 2001 were reasonable, allowable, and in accordance with applicable Federal regulations, cost
principles, and the approved Medicaid State plan.  For the audit period, Iowa reported total costs of $26.8 million
and claimed $15.2 million in FFP.  Iowa did not properly monitor the school-based health services administrative cost
program.  We determined Iowa:  (1) claimed $631,047 in Federal financial participation (FFP) without the required
matching expenditures at seven non-public agencies, (2)inappropriately claimed $22,535 due to spreadsheet rounding
errors, and (3) did not adequately monitor lead agency and sub-agency claims as they related to revenue offsets, allocation
bases, use of enhanced FFP rates, and reasonableness of time studies for determining costs attributable to the program.